No. ______
In the

Supreme Court of the United States
__________________
RICHARD BAATZ, et al.,
v.

Petitioners,

COLUMBIA GAS TRANSMISSION, LLC,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
Ricky L. Ferrara
Counsel of Record
2077 E. 4th Street, 2nd Fl.
Cleveland, OH 44115
(216) 816-0707
Rick@ohiolegalrep.com
Counsel for Petitioners

October 8, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
The Natural Gas Act (“NGA”) provides an avenue
for producers and transporters of natural gas to acquire
the right to use public, natural gas resources secreted
within private land.
The Act authorizes the Federal Energy Regulatory
Commission (“FERC”) to issue certificates as a
prerequisite to such use.
In the decision below, a Sixth Circuit panel held
that FERC certificate holders are not required to gain
permission to enter the subsurface the land of titled
landowners, in this case the Medina Landowners. The
Sixth Circuit found that Columbia Gas could use the
certificated property, a gas storage formation, without
first contracting, obtaining an easement from, or
bringing court action against the Medina Landowners.
The NGA, the Sixth Circuit reasoned, did not identify
a property interest worth protecting under federal or
Ohio law.
In this case Columbia Gas had used the storage
formation that included the Medina Landowners
subsurface for nearly sixty years without the
knowledge of or permission from the Medina
Landowners.
The question presented is:
Whether the Natural Gas Act requires the holder of
a Certificate of Public Convenience and Necessity to
obtain by easement, contract, or eminent domain the
permission to enter certificated land from the title
holder, and additionally identifies a property interest
protectable by the titled land owner under federal or
state law.

ii
PARTIES TO THE PROCEEDING
Ramsey Atlasy, Kimberly Atlasy, Richard Baatz,
Laurie Baatz, Brianne Booth, Erik Booth, Yang Zhang,
Alfredo Cipro, Tina Cipro, William Cogar, Kathrine
Cogar, Nicholas Doran, Michelle Doran, Paul Eierdam,
Arliss Eierdam, Dustin Holtz, Peggy Holtz, Donald
Kell, Patricia Kell, Bradley Klingbeil, Brooke Klingbeil,
Joseph Kostohryz, Lisa Kostohryz, Susan M. Lee,
Robert Newman, Anna Newman, John Racco, Laurie
Racco, Richard Reuss, George Rogers, Ellen Rogers,
Gregory Roten, Stacey Roten, Jesse Saksa, Melissa
Saksa, Jeff Sanderson, Rosemary Sanderson, John
Schaller, Kelly Schaller, Karen Shrimpton, Matt
Smith, April Smith, John Stricker, Kathleen Stricker,
Richard Sunderman, Kevin Swantek, Wendy Swantek,
Nancy Swartz, Kathryn Zendarski-Bacho, were
plaintiffs- appellants below.
Columbia Gas Transmission, LLC is the respondent
here and was the defendant-appellee below.

iii
STATEMENT OF RELATED PROCEEDINGS
Baatz v. Columbia Gas Transmission, LLC, 295
F. Supp. 3d 776, 2018 U.S. Dist. LEXIS 24339 (N.D.
Ohio, Feb. 14, 2018) - Lower court opinion.
Columbia Gas Transmission, LLC v. Brianne Booth,
et al., No. 1:16-cv-01418-TMP, Northern District of
Ohio, Eastern Division, Memorandum of Opinion and
Order on Plaintiff’s Motion for Partial Summary
Judgment (December 22, 2016), ECF No. 819.
There are no additional proceedings in any court
that are directly related to this case.

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. Regulatory Background. . . . . . . . . . . . . . . . . 10
B. Procedural History . . . . . . . . . . . . . . . . . . . . 11
REASONS FOR GRANTING THE PETITION . . . 14
I. The Decision Below Encourages Willful
Blindness by a Massive and Powerful Energy
Industry, Allowing Certificate Holders to Ignore
The Rights of Titled Landowners. . . . . . . . . . . . 16
A. The Sixth Circuit Defined Permission to
Enter Land as Non-Essential to for
Certificate Holders under the NGA . . . . . . . 17
B. The Sixth Circuit Contorted State Law to
Reach Its Conclusion . . . . . . . . . . . . . . . . . . . 19

v
C. The End Result of the Sixth Circuit’s
Jurisprudence is to Grant Land Without
Due Process, Affecting an Unreasonable
Seizure, and Eliminating the Recourse of a
Jury Trial . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
II. The Question Presented Is Exceptionally
Important . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(July 10, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Order
on
Landowners’ Unjust
Enrichment Claim in the United
States District Court, Northern
District of Ohio, Eastern Division
(February 26, 2018) . . . . . . . . . . App. 20
Appendix C Final Judgment Entry in the United
States District Court, Northern
District of Ohio, Eastern Division
(February 26, 2018) . . . . . . . . . . App. 23
Appendix D Amended Memorandum of Opinion
and Order in the United States
District Court, Northern District of
Ohio, Eastern Division
(February 14, 2018) . . . . . . . . . . App. 25

vi
TABLE OF AUTHORITIES
CASES
5655 Acres of Land and Coal in Indiana County,
Pennsylvania v. Texas Eastern Transmission
Corp.,
190 F. Supp. 175 (W.D. Penn. 1960) . . . . . . . 6, 19
In re AT&T Fiber Optic Cable Installation Litig.,
2001 U.S. Dist. LEXIS 24290, 2001 WL 1397295
(S.D. Ind. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Barfield v. Sho-Me Power Elec. Coop.,
10 F. Supp. 3d (W.D.Mo.2014) . . . . . . . . . . . . . . . 8
Bayes v. Toledo Edison Co.,
Lucas App. Nos. L-03-1177, L-03-1194,
2004 Ohio 5752 . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Beck v. N. Natural Gas Co.,
170 F.3d 1018 (10th Cir. 1999). . . . . . . . . . . . . 7, 9
Bowman v. Columbia Gas Transmission Corp.,
1988 U.S. App. LEXIS 9229,
850 F.2d 692 (6th Cir. Ohio 1988) . . . . . . . . . . 6, 7
Calero-Toledo v. Pearson Yacht Leasing Co.,
416 U.S. 663, 94 S. Ct. 2080,
40 L. Ed. 2d 452 (1974) . . . . . . . . . . . . . . . . 10, 20
California v. ARC America Corp.,
490 U.S. 93, 109 S. Ct. 1661,
104 L. Ed. 2d 86 (1989) . . . . . . . . . . . . . . . . . . . . 11
Chance v. B.P. Chemicals, Inc.,
77 Ohio St. 3d 17, 670 N.E.2d 985
(Ohio 1996) . . . . . . . . . . . . . . . . . 10, 13, 14, 19, 22

vii
CitiMortgage, Inc. v. Robson,
5th Dist. No. 2011-CA-0017, 2011 Ohio 4617 . . . 9
City of Monterey v. Del Monte Dunes,
526 U.S. 687 (1999). . . . . . . . . . . . . . . . . . . 7, 8, 21
Columbia Gas Transmission LLC v. Crawford,
267 F.R.D. 227, 2010 U.S. Dist. LEXIS 42001
(N.D. Ohio 2010) . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Curtis v. Loether,
415 U.S. 189, 94 S. Ct. 1005,
39 L. Ed. 2d 260, (1974). . . . . . . . . . . . . . . . . 8, 21
Delta Drilling Co. v. Arnett,
186 F.2d 481 (6th Cir. 1950). . . . . . . . . . . . . . . . . 8
Drawhorn v. Qwest Commc’ns Int’l, Inc.,
121 F.Supp.2d 554 (E.D. Tex. 2000). . . . . . . . . . . 8
East Tennessee Natural Gas Co. v. Sage,
361 F.3d 808 (4th Cir. 2004). . . . . . . . . . . . . . . . 18
Fuentes v. Shevin,
407 U.S. 67 (1972). . . . . . . . . . . . . . . . . . . . . 10, 20
Humphries v. Williams Natural Gas Co.,
48 F.Supp.2d 1276 (D. Kan. 1999) . . . . . . . 5, 6, 18
Interstate Natural Gas Co. v. Federal Power
Comm’n, 331 U.S. 682 (1947) . . . . . . . . . . . . . . . 11
Mason v. United States,
260 U.S. 545, 43 S. Ct. 200,
67 L.Ed. 396 (1923) . . . . . . . . . . . . . . . . . . . . . . . . 8

viii
Melton v. Carolina Power & Light Co.,
2012 U.S. Dist. LEXIS 87207,
2012 WL 2401635 (D.S.C. 2012). . . . . . . . . . . . . . 8
Merino v. The Salem Hunting Club,
Columbiana App. No. 07CO16,
2008 Ohio 6366 . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Northern Border Pipeline Co. v. 86.72 Acres of Land,
144 F.3d 469 (7th Cir. 1998). . . . . . . . . . . . . . . . 18
Oneok, Inc. v. Learjet, Inc.,
___U.S.___, 135 S. Ct. 1591,
191 L.Ed.2d 511 (2015) . . . . . . . . . . . . . . . . . . . . 11
Panhandle Eastern Pipe Line Co. v. Public Serv.
Comm’n of Ind., 332 U.S. 507, 68 S. Ct. 190,
92 L. Ed. 128 (1947) . . . . . . . . . . . . . . . . . . . . . . 11
Pearl v. Pic Walsh Freight Co.,
112 Ohio App. 11, 168 N.E.2d 571 (1960) . . . . . 10
Phillips Petroleum Co. v. Wisconsin,
347 U.S. 672, 74 S. Ct. 794,
98 L. Ed. 1035 (1954) . . . . . . . . . . . . . . . . . . . . . 11
Quillet v. Johnson,
34 Ohio Op. 308, 71 N.E.2d 488 (1947) . . . . . . . 10
Red Ash Coal Co. v. Ball,
185 Va. 534, 39 S.E.2d 231 (1946) . . . . . . . . . . . . 8
Richard v. Hunter,
151 Ohio St. 185, 85 N.E.2d 109 (1949) . . . . . . . 10
Schneidewind v. ANR Pipeline Co.,
485 U.S. 293, 108 S. Ct. 1145,
99 L. Ed. 2d 316 (1988) . . . . . . . . . . . . . . . . . . . . 11

ix
Transwestern Pipeline Co. v. 17.19 Acres of
Property Located in Maricopa County,
550 F.3d 770 (9th Cir. 2008). . . . . . . . . . . . 5, 6, 18
United States v. James Daniel Good Real Property,
510 U.S. 43, 114 S. Ct. 492,
126 L.Ed.2d 490 (1993) . . . . . . . . . . . . . . . . . 10, 20
Wilson v. Columbia Gas Transmission, LLC,
No. 2:12-cv-01203-JLG-MRA (EXF No. 256)
(S.D. Ohio Sept. 9, 2013). . . . . . . . . . . . . . . . . . . 6
CONSTITUTION AND STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . . 5, 10
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . 4, 10
U.S. Const. amend. VII . . . . . . . . . . . . . 4, 7, 8, 10, 21
28 U.S.C. § 717f(h) . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 3
OTHER AUTHORITIES
George H. Genzel, Award of, or Pending
Proceedings for, Compensation for Property
Condemned, as Precluding Action for Damages
Arising From Prior Trespasses Upon it, 33
A.L.R. 3d (1971) . . . . . . . . . . . . . . . . . . 5, 6, 18, 19
88 Ohio Jur.3d Trespass § 19 . . . . . . . . . . . . . . . . . 10

1
PETITION FOR WRIT OF CERTIORARI
The Natural Gas Act regulates our country’s vast
resources for natural gas storage and transmission, a
staple of United States citizens’ energy consumption,
granting rights to use that resource to private entities
that do not own the land in or through which they store
and transmit gas.
Some of the resources at issue include gas storage
fields; natural formations in porous rock that hold
natural gas reserves. The gas fields at issue are
massive. So much so that scores of private citizens own
the land over gas storage fields – from home owners to
industrial and agricultural businesses – even if they do
not know the fields exist. The fields generate massive
revenue and support the multi-billion dollar industry
of natural gas production and transmission.
A panel for the Sixth Circuit Court of Appeals ruled
in Baatz that permission to enter land was optional,
finding that the “NGA does not require the certificate
holder to acquire the property it uses for its natural gas
storage; the statute merely authorizes acquisition.”
Baatz, p. 3.1
By relying on this false premise, the Sixth Circuit
panel found that the NGA granted certificate holders
the right to use land without seeking permission to do
so from titled land holders, either via the NGA or state
law. This included gas storage fields spanning

1

The lower court made the same finding, holding that nothing in
the NGA required certificate holders such as Columbia Gas to
obtain permission to use the certificated land. (App. 35)

2
hundreds of square miles throughout Ohio and
affecting thousands of privately owned parcels of land,
regardless, apparently, as to whether those land
holders might have an interest to use the same land,
were they so informed of its importance.
The Sixth Circuit further found that certificated
land was a “property interest” to the FERC certificate
holders, but not to title owners of the land.
Multinational energy companies presumably found the
space valuable and useable, maintained a property
interest thereon through the NGA, but the title owners
were declared to not. Per the Sixth Circuit panel’s
reasoning, energy companies were granted rights by
the United States government to use the certificated
properties. But not title owners, per the Sixth Circuit’s
new rubric.
Rather, the Sixth Circuit has identified NGA
governed property as valueless to its title owner until
eminent domain proceedings are commenced, despite
a federal judicial history that has required certificate
holders to gain permission to enter the land granted
under the statute, and permission to use the land as
intended under the NGA.
The Sixth Circuit mustered a faulty state law
interpretation to support its interpretation of the NGA:
A title owner must have reasonable and foreseeable use
of the NGA-certificated property in order to have a
viable cause of action under state law, and otherwise
may only obtain relief through eminent domain
proceedings.

3
Two realities cut against this: (1) eminent domain
proceedings do not provide compensation for use prior
to the lawful taking via eminent domain proceedings,
take; and (2) a landowner cannot know that their
property has been utilized under the NGA because the
existence and use of any gas storage fields are kept
secret, as they were here for natural security purposes.
The Sixth Circuit has made clear that it adheres to
a principal not supported by circuit precedent – it is an
option for a certificate holder to get permission to enter
land, as long as the landowner does not know about
what the gas company is doing, and so there is no
inherent property interest for title holders of NGA
certificated land.
The Sixth Circuit panel placed knowledge over title,
incentivizing natural gas companies to keep secret
their operations, make a great deal of money, and then
avoid state law and condemnation damages despite
their non-compliance with the NGA.
OPINIONS BELOW
The Sixth Circuit’s opinion is reported at 929 F.3d
767 and reproduced at App. 1-19.
The district court’s memorandum of opinion and
order is reported at 295 F. Supp. 3d 776 and
reproduced at App.25-63.
JURISDICTION
The Sixth Circuit issued its opinion on July 10th,
2019. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).

4
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Natural Gas Act provides, in relevant part:
“When any holder of a certificate of public convenience
and necessity cannot acquire by contract, or is unable
to agree with the owner of property to the
compensation to be paid for, the necessary right-of-way
to construct, operate, and maintain a pipe line or pipe
lines for the transportation of natural gas, and the
necessary land or other property, in addition to rightof-way, for the location of compressor stations, pressure
apparatus, or other stations or equipment necessary to
the proper operation of such pipe line or pipe lines, it
may acquire the same by the exercise of the right of
eminent domain in the district court of the United
States for the district in which such property may be
located, or in the State courts.” Natural Gas Act, 15
U.S. Code § 717f(h).
“No person shall be. . . .deprived of life, liberty, or
property, without due process of law; nor shall private
property be taken for public use, without just
compensation.” Fifth Amendment, United States
Constitution.
“In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of
the United States, than according to the rules of the
common law. Seventh Amendment, United States
Constitution.

5
“The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and
the persons or things to be seized.”
Fourth
Amendment, United States Constitution.
STATEMENT OF THE CASE
1. The NGA § 717f(h) does not give a FERC
certificate holder the right to immediate possession of
land, and instead requires a certificate holder to
commence eminent domain proceedings before taking
possession. Transwestern Pipeline Co. v. 17.19 Acres of
Property Located in Maricopa County, 550 F.3d 770,
774-75 (9th Cir. 2008).
2. An objecting land holder has a viable state law
claim that come prior to the issuance of an order for
condemnation, because condemnation contemplates
going-forward damages only. See Humphries v.
Williams Natural Gas Co., 48 F.Supp.2d 1276, 1279-82
(D. Kan. 1999). “[T]he great preponderance of cases
have, at the very least, recognized that the
condemnation award does not necessarily include
damages for prior trespasses, and that the award or the
pendency of condemnation proceedings, as the case
may be, does not bar an action for the prior trespass,
unless trespass damages were in fact litigated.” Id.
quoting George H. Genzel, Award of, or Pending
Proceedings for, Compensation for Property
Condemned, as Precluding Action for Damages Arising
From Prior Trespasses Upon it, 33 A.L.R. 3d 1132

6
(1971) (footnotes and quotations omitted); 5655 Acres
of Land and Coal in Indiana County, Pennsylvania v.
Texas Eastern Transmission Corp., 190 F. Supp. 175
(W.D. Penn. 1960).
3. The District Court for the Northern District of
Ohio has previously held that common law claims
predating Columbia’s compliance with the NGA bring
separate forms of relief from eminent domain
proceedings. Columbia Gas Transmission LLC v.
Crawford, 267 F.R.D. 227, 2010 U.S. Dist. LEXIS
42001 (N.D. Ohio 2010) The Southern District of Ohio
recently held the same when it rejected a motion to
dismiss trespassing claims, also filed by Columbia.
Wilson v. Columbia Gas Transmission, LLC, No. 2:12cv-01203-JLG-MRA (EXF No. 256), at 3-4 (S.D. Ohio
Sept. 9, 2013). The Southern District noted that “precertification and pre-negotiation” trespass allegations
were “factually important”, and precluded dismissal
under a regulatory scheme in which gas companies
must “scrupulously abide” by 717f(h) and do not have
a right to immediate possession. Id. citing Humphries,
48 F.Supp.2d at 1279; Transwestern Pipeline Co., 550
F.2 at 774-75.
4. The Sixth Circuit Court of Appeals previously
held that pre-condemnation state law claims bring with
them different forms of relief; affirming actual and
punitive damages for trespass against Columbia for
pre-condemnation entry into land. See Bowman v.
Columbia Gas Transmission Corp., 1988 U.S. App.
LEXIS 9229, 850 F.2d 692 (6th Cir. Ohio 1988) There,
Columbia engaged in “willful and outrageous” twentyyear concealment of gas storage under the subject

7
property, without having even attempted eminent
domain proceedings.
Id.
There, “Columbia
intentionally concealed the fact that they were using
the property for twenty years without any
compensation, just or otherwise. Presumably, this
willful unauthorized expropriation would have been
continued indefinitely had the Bowmans not signed a
lease to retrieve gas from their own property, thereby
forcing Columbia’s hand. Columbia’s actions went
beyond mere negligence; their willful and outrageous
character amply supported an award of punitive
damages.” Id. at *6.
5. In Beck, the Seventh Circuit Court of Appeals
also affirmed an award of damages for trespass for
natural gas storage. Beck v. N. Natural Gas Co., 170
F.3d 1018 (10th Cir.1999) The Seventh Circuit held
that natural gas migration and longtime storage
amounted to a trespass, and the trespass warranted
attorney’s fees per Kansas statute. Id. citing KS Stat
§ 5 5 - 1 2 1 0 ( a l l o w i n g r e c o ver y f o r “ u s e
of…subsurface”…”as is provided by law” and “including
reasonable attorney’s fees, if litigation is necessary to
enforce any rights”).
The Seventh Circuit’s
examination in Beck affirmed a jury finding of liability
for direct, common law trespass identical to that found
in Ohio. Id. at 1024.
6. The Seventh Amendment to the United States
Constitution allows the jury to decide whether the
landowners had a protectable property interest, and
determine its value: “[A] tort action for money damages
is entitled to jury trial under the Seventh Amendment.”
City of Monterey v. Del Monte Dunes, 526 U.S. 687, 729

8
(1999) citing Curtis v. Loether, 415 U.S. 189, 195, 94
S. Ct. 1005, 39 L. Ed. 2d 260 (1974).
7. Federal courts reviewing easement breaches
allows landowners to pursue both trespass and unjust
enrichment claims in the alternative. Barfield v. ShoMe Power Elec. Coop., 10 F. Supp. 3d 997
(W.D.Mo.2014) citing Red Ash Coal Co. v. Ball, 185 Va.
534, 39 S.E.2d 231 (1946). At the very least, unjust
enrichment is a consideration where an easement
holder acted beyond the permissions granted by the
easement. Drawhorn v. Qwest Commc’ns Int’l, Inc.,
121 F.Supp.2d 554, 563 (E.D. Tex. 2000); In re AT&T
Fiber Optic Cable Installation Litig., 2001 U.S. Dist.
LEXIS 24290, 2001 WL 1397295, at *12 (S.D. Ind.
2001); Melton v. Carolina Power & Light Co., 2012 U.S.
Dist. LEXIS 87207, 2012 WL 2401635, at *3 (D.S.C.
2012).
8. Mineral rights cases reflect an overwhelming
prohibition against direct use of another’s land for
profit, such that the encroacher who takes minerals
from the land is deemed a “trespasser” and owes the
beneficial value of the trespass. Delta Drilling Co. v.
Arnett, 186 F.2d 481 (6th Cir. 1950) (encroacher who
took minerals from another’s land is a trespasser under
state law, and owed the value of benefit of reserved
minerals removed); Mason v. United States, 260 U.S.
545, 43 S. Ct. 200, 67 L.Ed. 396 (1923) (encroacher who
takes minerals from another land is a trespasser under
state law and owes the value gained, even if it was
gained by mistake).

9
9. In Beck, the Seventh Circuit held that “there was
substantial evidence to support the jury’s verdict on
unjust enrichment” where the jury found purposeful
storage of gas benefitted the gas company. Beck, 170
F.3d at 1024. “The benefit that Northern received from
the landowners was the use of the Simpson formation
without payment of rent, for which the proper measure
of damages was, as the district court found, fair rental
value.” Id. While allowing both a trespass and unjust
enrichment claim to stand, however, the Beck court
disallowed dual recovery for the jury’s finding of rental
value of the space. Id.
10. In Bayes, Ohio’s Sixth District Court of Appeals
ruled that the scope of an easement determines
whether a party can be liable for state law claims,
including unjust enrichment. Bayes v. Toledo Edison
Co., Lucas App. Nos. L-03-1177, L-03-1194, 2004 Ohio
5752, ¶ 2. In Bayes, Toledo Edison large utility trucks
drove over Bayes’ property, causing damage to the
ground. Id. Toledo Edison’s crews also cut down large
trees unnecessarily. Id. The Sixth District found that
although Toledo Edison had an easement, the Trial
Court erred in not determining the scope of that
easement before dismissing Bayes’ claim of unjust
enrichment. Id. Effectively, a landowner has a claim
against encroachers in unjust enrichment, especially
where they exceed the scope of their rights to enter. Id.
11. “If a property owner proves the elements of
trespass, he has a right to nominal damages without
proof of actual damages.” CitiMortgage, Inc. v. Robson,
5th Dist. No. 2011-CA-0017, 2011 Ohio 4617, ¶ 12
citing Merino v. The Salem Hunting Club, Columbiana

10
App. No. 07CO16, 2008 Ohio 6366, ¶ 41; see also Pearl
v. Pic Walsh Freight Co., 112 Ohio App. 11, 12, 168
N.E.2d 571, 572 (1960). Nominal damages support an
award of punitive damages. Quillet v. Johnson, 34 Ohio
Op. 308, 71 N.E.2d 488, 489-90 (1947); Richard v.
Hunter, 151 Ohio St. 185, 187-89, 85 N.E.2d 109, 110
(1949); 88 Ohio Jur.3d Trespass § 19.
12. The Ohio Supreme Court added a caveat to the
doctrine of trespass in Ohio, holding that “substantial
damage” was necessary for a claim of trespass, where
the claim was damage to the res, where trespass
occurred indirectly, and the damage to the res
interfered with the “reasonable and foreseeable” use of
the property. Chance v. B.P. Chemicals, Inc., 77 Ohio
St. 3d 17, 670 N.E.2d 985 (Ohio 1996)
13. Staking off odd territory by its opinion, the Sixth
Circuit grants companies like Columbia Gas a superior
right to use property without notice or recourse to the
owner, in contravention to Due Process Clause of the
Fifth Amendment, the Fourth Amendment, and
Seventh Amendment to the United States Constitution.
United States v. James Daniel Good Real Property, 510
U.S. 43, 114 S. Ct. 492, 126 L.Ed.2d 490 (1993),
syllabus at 1(a), citing, e.g., Calero-Toledo v. Pearson
Yacht Leasing Co., 416 U.S. 663, 94 S. Ct. 2080 40
L. Ed. 2d 452 (1974); Fuentes v. Shevin, 407 U.S. 67, 92
S. Ct. 1983, 32 L. Ed. 2d 556 (1972).
A. Regulatory Background
1. Congress enacted the Natural Gas Act with the
“overriding…purpose” to fill the regulatory gap left by
judicial decisions prohibiting the state regulation of

11
interstate commerce. Phillips Petroleum Co. v.
Wisconsin, 347 U.S. 672, 682, 74 S. Ct. 794, 98 L. Ed.
1035 (1954).
2. A significant part of the regulatory gap was
created by cases holding that “the regulation of
wholesale rates of gas and electrical energy moving in
interstate commerce is beyond the constitutional
powers of the States.” Interstate Natural Gas Co. v.
Federal Power Comm’n, 331 U.S. 682, 689.
3. The Natural Gas Act does not pre-empt areas of
traditional state regulation. Schneidewind v. ANR
Pipeline Co., 485 U.S. 293, 108 S. Ct. 1145, 99 L. Ed. 2d
316 (1988). This includes States have “common-law
and statutory remedies” long provided, including
protections against monopolies and unfair business
practices.” California v. ARC America Corp., 490 U.S.
93, 101, 109 S. Ct. 1661, 104 L. Ed. 2d 86 (1989).
4. The Natural Gas Act “was drawn with meticulous
regard for the continued exercise of state power, not to
handicap or dilute it in any way.” Oneok, Inc. v. Learjet,
Inc., ___U.S.___, 135 S. Ct. 1591, 1592, 191 L.Ed.2d 511
(2015) citing Panhandle Eastern Pipe Line Co. v. Public
Serv. Comm’n of Ind., 332 U.S. 507, 517-518, 68 S. Ct.
190, 92 L. Ed. 128 (1947).
B. Procedural History
1. Twenty-nine residents of Medina, Ohio
(hereinafter “Petitioners” or “Medina Landowners”)
brought suit against Columbia Gas Transmission, LLC
(hereinafter “Respondents” or “Columbia”) after being
informed that Columbia used the subsurface of their
properties to store and transfer natural gas, without

12
permission, and without
approximately sixty years.

an

easement

for

2. Columbia Gas obtained a certificate of public
convenience and necessity in 1958 to operate a natural
gas storage field in northern Ohio (the “Medina Storage
Field”).
3. Columbia Gas concedes that the existence, and its
use the storage field, was kept secret from the Medina
Landowners until 2013.
4. Third party gas producers paid Columbia Gas to
store their natural gas in a large rock formation
underground, part of which rested under the Medina
Landowners’ homes, since the 1950’s. Columbia stores
and transmits the gas when it is ready to use, charging
fees for those services.
5. In 2013, Columbia Gas offered $250 per acre to
each Medina Landowner, roughly, for permission to use
the subsurface of their property and waive their right
to any prior causes of action. Each Medina Landowner
declined this offer, whereby each brought an inverse
condemnation claim along with claims of trespass and
unjust enrichment.
6. The District Court denied Columbia’s motion to
dismiss the Medina Landowners’ state law claims,
holding that the Natural Gas Act did not preempt those
claims.
7. In Columbia Gas Transmission v. Booth
(hereinafter “Booth”), the eminent domain action
related to this case, the parties proceeded to a trial by
commission to determine just compensation for the

13
taking of an underground storage easement beneath
the Medina Landowners’ properties. The Landowners
claimed diminution of value to their properties as
damages due to the stigma related to gas storage.
Columbia Gas presented prior easement values to
argue for a takings award. The commission declined to
award the Medina Landowners for diminution of value,
and awarded nominal damages to the Landowners on
the basis of Columbia’s evidence of valuation of the
easement alone.
8. Both parties filed cross-motions for summary
judgment on the remaining claims of trespass and
unjust enrichment. The Landowners, unlike in prior
motions and proccedings, included expert valuation of
the past storage activities in the subject storage field in
requesting a trial, noting that the evidence had yet to
be presented.
The data included volumetric
calculations representing millions of dollars of storage
and transmission value to Columbia Gas, all by use of
the Landowners’ properties without their permission,
from the 1950’s to the present. The Landowners
intended to present that new and unique evidence at
the scheduled jury trial and in support of their state
law claims.
9. The District Court granted summary judgment to
Columbia Gas on the Landowners’ trespass claim, but
granted summary judgment to the Landowners on
their unjust enrichment claim. The District Court
awarded as unjust enrichment damages only
“prejudgment interest” on the Landowners’ award in
condemnation under Booth. The District Court held
that an interpretation of Chance precluded the Medina

14
Landowners from having a protectable property
interest in the subsurface of land, the use of which was
not “reasonable or foreseeable.” The District Court
thus precluded a trespass claim.
10. The Sixth Circuit affirmed the District Court’s
judgment on trespass and interpretation of the NGA
and Chance. Without Columbia having cross-appealed,
the Sixth Circuit modified the District Court’s finding
on unjust enrichment to deny the Landowners relief,
stripping even their modest award, and finding that
without a “property interest” in the condemned land,
they could not be granted an award for an unjust
enrichment claim. The Sixth Circuit panel also
concluded that the Medina Landowners’ claims failed
because they had no property interest, as their use of
the underground storage formation was not
“reasonable and foreseeable.”
REASONS FOR GRANTING THE PETITION
The decision below allows gas companies to cheat
titled landowners out of revenue, and incentivizes the
same companies to hide their noncompliance with NGA
and state law.
Under the NGA, a gas company is now authorized
to avoid eminent domain proceedings, and avoid state
common law damages. Since every single gas storage
field recognized by the NGA is deep underground, few
landowners know of them. Since titled landowners
don’t know of the gas formations, they cannot have a
“reasonable or foreseeable” interest to protect it, profit
from it, or even demand that an easement be secured
before it is used.

15
This prevents landowners from being compensated
for the use of their property, either in the future by way
of an easement, or for past, unauthorized use by way of
common law trespass and unjust enrichment actions.
The decision of the Sixth Circuit panel ignores the
plain language of the NGA, which should be read to
mandate a certificate holder to obtain permission to
enter land. Through the NGA, gas companies should
be encouraged to pay heed to the property rights
connected with certificated land, because that land was
inevitably titled to another party with superior rights
to the land.
The Sixth Circuit renders meaningless state
protections by blindly ignoring (1) that Columbia Gas
acknowledged a “property interest” in the certificated
property when it profited from the property for nearly
sixty years, then sued for an easement; and (2) that
only by virtue of their secret knowledge of the
certificated property did Columbia allegedly gain a
“property interest” greater than a title holder. The
opinion grants all those who know about the gas
storage formation a greater interest than those who
actually bought the property.
The Sixth Circuit further deprives the landowner of
any right to contest the acquisition of their land
through the NGA, leaving them without notice that
they have had the subsurface of the land secreted away
from them, and then used for profit in which the titled
owner could have shared had they known of the
existence of the value of the subsurface.

16
Had the Medina Landowners known that there was
money to be made in renting the very same storage
formation, for example, and had they not been
constrained by the NGA, they would have been entitled
to rent their property for a profit – a “reasonable and
foreseeable” use of the subsurface – to make money.
The Sixth Circuit rubric does not acknowledge this, and
in fact dangerously ignores it, to the exclusion of
thousands of titled landowners in the United States.
Instead, the Sixth Circuit panel found that the
NGA, by fiat, grants property rights to gas companies
without the need for permission from the title holder
unless that title holder is engaged in a conflicting
activity.
This has never been the state of the law in the
United States, and the contorted application of Ohio
law now stands to affect every state in the union.
I. The Decision Below Encourages Willful
Blindness by a Massive and Powerful Energy
Industry, Allowing Certificate Holders to
Ignore The Rights of Titled Landowners.
By the Sixth Circuit’s decision, the NGA has been
transformed from an industry regulator to a property
overlord, eviscerating the rights of state title owners.
Gas companies may now press a strategy of willful
blindness, whereby they do not exercise any obligation
under the NGA to gain permission before entering,
using, and profiting from underground storage
formations.

17
A. The Sixth Circuit Defined Permission to
Enter Land as Non-Essential to for
Certificate Holders under the NGA.
1. A panel for the Sixth Circuit Court of Appeals
ruled in Baatz that permission to enter land was
optional, finding that the “NGA does not require the
certificate holder to acquire the property it uses for its
natural gas storage; the statute merely authorizes
acquisition.” Baatz, p. 3.
This astonishing statement of law means that the
NGA grants a basket of rights separate and apart from
any property regimen in the United States, one not
recognized by any court. Put another way – the
property a gas company “uses for its natural gas
storage” need not be “acquire[d]” – meaning no further
property rights need be obtained under the NGA, and
operators can start using gas storage fields as soon as
the certificate is granted.
This is wrong.
The plain language of the statute presents three
options: (1) to obtain by contract; (2) to obtain by
easement; or (3) acquire by eminent domain the right
to enter land:
When any holder of a certificate of public
convenience and necessity cannot acquire by
contract, or is unable to agree with the owner of
property to the compensation to be paid for, the
necessary right-of-way to construct, operate, and
maintain a pipe line or pipe lines for the
transportation of natural gas, and the necessary
land or other property, in addition to right-of-

18
way, for the location of compressor stations,
pressure apparatus, or other stations or
equipment necessary to the proper operation of
such pipe line or pipe lines, it may acquire the
same by the exercise of the right of eminent
domain in the district court of the United States
for the district in which such property may be
located, or in the State courts. NGA, 15 U.S.
Code § 717f(h).
Circuit courts have consistently held that the NGA
§ 717f(h) does not give a certificate holder the right to
immediate possession. Transwestern Pipeline Co. v.
17.19 Acres of Property Located in Maricopa County,
550 F.3d 770, 774-75 (9th Cir. 2008). “[A] plaintiff gas
company must secure an order of condemnation before
taking possession.” Northern Border Pipeline Co. v.
86.72 Acres of Land, 144 F.3d 469, 472 (7th Cir. 1998),
citing East Tennessee Natural Gas Co. v. Sage, 361
F.3d 808, 825 (4th Cir. 2004).
Eminent domain proceedings provide only part of
the award to which a landowner is entitled. “[T]he
great preponderance of cases have, at the very least,
recognized that the condemnation award does not
necessarily include damages for prior trespasses, and
that the award or the pendency of condemnation
proceedings, as the case may be, does not bar an action
for the prior trespass, unless trespass damages were in
fact litigated.” Humphries v. Williams Natural Gas Co.,
48 F.Supp.2d 1276, 1279-82 (D. Kan. 1999) quoting
George H. Genzel, Award of, or Pending Proceedings
for, Compensation for Property Condemned, as
Precluding Action for Damages Arising From Prior

19
Trespasses Upon it, 33 A.L.R. 3d 1132 (1971) (footnotes
and quotations omitted); 5655 Acres of Land and Coal
in Indiana County, Pennsylvania v. Texas Eastern
Transmission Corp., 190 F. Supp. 175 (W.D. Penn.
1960).
The Sixth Circuit’s premise is thus flawed, that the
NGA does not mandate that a FERC holder obtain
permission. It presents NGA compliance as a mere
option.
B. The Sixth Circuit Contorted State Law to
Reach Its Conclusion.
The Sixth Circuit supports its permissive
interpretation of the NGA by interpreting state law to
exclude economic use of land as a “reasonable or
foreseeable” use by title owners.
In so finding, it notes that only Columbia Gas could
have an interest in the subsurface, because such use is
“reasonably foreseeable” to the gas company, but not
the title owners. It likens this case to Chance v. B.P.
Chemicals, Inc., 77 Ohio St. 3d 17, 670 N.E.2d 985
(Ohio 1996), where the Ohio Supreme Court found
limits to landowners rights to a subsurface. In that
case, waste injectate flowed under title owners’
property. The owners sued for damage to the res only.
It had nothing to do with the collection of rents for
economic use.
The Sixth Circuit adopted this finding to not only
preclude a trespass claim, but an unjust enrichment
claim. In both instances, despite Columbia Gas
admittedly profiting from the land beneath the Medina

20
Landowners’ homes for decades, there could be no tort
liability against the gas company under state law.
The Sixth Circuit’s logic is untenable, as it was not
logical for the Medina Landowners to forgo hundreds of
thousands of dollars in rental revenues. Had the
landowners known that the storage formation existed,
they could have demanded rents for its use.
The NGA and Columbia Gas prevented the Median
Landowners from having the very knowledge - about
their own land - that made its use reasonable and
foreseeable.
C. The End Result of the Sixth Circuit’s
Jurisprudence is to Grant Land Without
Due Process, Affecting an Unreasonable
Seizure, and Eliminating the Recourse of a
Jury Trial.
By not mandating that a certificate holder gain
permission to enter certificated land from a title holder,
the Sixth Circuit grants a property right without Due
Process of law.
A property owner must receive notice and an
opportunity to be heard before the Government
deprives them of property. United States v. James
Daniel Good Real Property, 510 U.S. 43, 114 S. Ct. 492,
126 L.Ed.2d 490 (1993), syllabus at 1(a), citing, e.g.,
Calero-Toledo v. Pearson Yacht Leasing Co., 416 U.S.
663, 94 S. Ct. 2080, 40 L. Ed. 2d 452 (1974); Fuentes v.
Shevin, 407 U.S. 67, 92 S. Ct. 1983, 32 L. Ed. 2d 556
(1972).

21
Titled land owners, like the Medina Landowners,
are thus left without recourse to correct the trespasses
of certificate holders, except through an eminent
domain proceeding brought at their whim. The
Landowners have asked for its rights to be determined
by a jury under the Seventh Amendment. See, e.g. City
of Monterey v. Del Monte Dunes, 526 U.S. 687, 729
(1999) citing Curtis v. Loether, 415 U.S. 189, 195, 94
S. Ct. 1005, 39 L. Ed. 2d 260 (1974). The Medina
Landowners’ request has been ignored.
The Sixth Circuit impacts each of these rights by its
decision, further stripping the landowners of any
recourse against an actor under the NGA.
II. The Question Presented Is Exceptionally
Important.
The Sixth Circuit has laid down the gauntlet for
landowners in the United States, that their properties
will be used without their permission under the NGA
because they don’t know any better.
The Sixth Circuit thus places knowledge and an
NGA certificate over title. Despite the vast body of law
disallowing the extralegal appropriation of the
subsurface interests of another from time immemorial,
the decision in Baatz allows gas companies to use
subsurface storage formations with impunity.
When gas companies are caught, the Sixth Circuit
concludes that gas companies will have to pay “just
compensation” in an eminent domain proceeding – but
what of tort damages? The NGA surely didn’t mean to
destroy those. It surely didn’t mean to recognize a new
right to gas companies and oil companies that was not

22
denied title holders prior to its enactment. And surely
didn’t grant FERC certificate holders carte blanch to
every mineral interest in the United States that title
owners did not yet claim.
The gross incentive under the Baatz rubric is for gas
companies to conceal. Conceal, conceal, conceal. By
failing to disclose the use of their subsurface interests
to landowners, including homeowners with no means
necessary to see whether valuable gas storage space
exists under their home, gas companies will inevitably
adopt the strategy of concealment of their wrongs. If
those granted FERC certificates keep quiet, then under
Baatz, there will be no punishment for them in the
form of tort damages or attorney’s fees for their gross
abuse of law.
This massive advantage bore fruit for Columbia Gas
in this instance – they played the waiting game with
the courts and the unwitting landowners, and cashed
in big time. Making millions of dollars under the noses
of the landowners, Columbia Gas moved billions of
cubic feet of gas since the 1950’s. They waited. They
collected revenues in the millions of dollars in rental by
use of the Median Landowners’ properties alone. They
waited. And in the end, when they finally revealed
their hand, they were forced to pay a fraction of their
gains.
By keeping landowners in the dark for
approximately sixty years, they proposed – at worst paying for only six years of revenues under Ohio’s
statutes of limitations, and ultimately nothing under
the Sixth Circuit’s interpretation in Chance.
The right to benefit from a property should not go to
the NGA certificate holder at the expense of the title

23
owner. It goes to the title owner first. The NGA
recognizes the value of the land it governs, so why
wouldn’t the Sixth Circuit, and why wouldn’t all state
laws? The Sixth Circuit does not provide a satisfactory
answer.
The Sixth Circuit got it backwards, and granted
Columbia Gas and its brethren the undue right to
profit from land to which they don’t have title, contract,
or easement.
This Court should review to correct this absurd and
dangerous result.
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari.
Respectfully submitted,
Ricky L. Ferrara
Counsel of Record
2077 E. 4th Street, 2nd Fl.
Cleveland, OH 44115
(216) 816-0707
Rick@ohiolegalrep.com
Counsel for Petitioners
October 8, 2019

